IV w
No.
IN THE SUPREME COURT OF THE UNITED
STATES
William Snowden, Jr.,
Petitioner
v.

Charmaine Bracy,
Respondent
Stephanie L. Watson,
Ass, Ohio Attorney General
Counsel for Respondent
150 East Gay Street

FILED
JAN 2 1 2020
qupRFMeTCO U F^lLERK
; u.s.

Columbus, Ohio 43215

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
William Snowden, Jr., Pro se
216 Churchill Road
Girard, Ohio 44420
(330)984-3151
E-mail- williamsnowdenOO@gmail.com

received
JAN 2 7 2020

SSSSSiSim^

Questions for Review
1.

When a habeas corpus Petitioner is
innocent of an aggravated felony, has proof of
innocence beyond all reasonable doubt and the
conviction occurred because of ineffective
assistance of counsel, should the petition be
dismissed as procedurally defaulted without
an evidentiary hearing?

2.

When overzealous prosecutors can take an
unconstitutionally vague law and convict first
time offenders with aggravated felonies,
should this Court reverse it’s ruling in
Almendarez Torres v. United States, to
prevent innocent defendants from being
unlawfully convicted and sent to prison?

11

3.

When a trial court Judge ignores statutory
protections that would have stopped a
conviction, and convicts an innocent defendant
of an aggravated felony, is that judgment void
according to this Court’s centuries old
precedence?

Ill

Table of Contents
Questions Presented
Table of Contents
Table of Authorities

1,11

m,iv
V,V1,V11,V111,1X,X

Petition for Writ of Certiorari

1

Opinions Below

1

Jurisdiction

1

Constitutional Provisions Involved

2

•

Amendment V

•

Amendment VI

•

Amendment XIV

Statement of the Case

4

The Sixth Circuits decision is in conflict with this
Courts precedence

9

IV

Why this Court should revisit and reverse the ruling
in Almendarez Torres v. United States

15

Why Mr. Snowden’s judgment is void

19

Reason for granting the writ

21

Appendix A
•

Judge Carr’s order “Northern District
Ohio”

27

Appendix B
•

Petitioner’s motion for certificate of
appealability

40

Appendix C
•

Sixth Circuit denial of certificate of
appealability

63

V

Table of Authorities
Almendarez Torres v. United States, 523 U.S. 224
(1998)

15,16,18,19,48,49

Apprendi v. New Jersey, 530 U.S. 466 (2000)

15

Coleman v. Thompson, 501 U.S. 722, 750-51
70

(1991)
Dretke v. Haley, 541 U.S. 386
(2004)

10,11,12,13,54,55

Edwards v. Carpenter, 529 U.S. 466, 453 (2000)...70
Freeman on Judgments (120c)

20

Gray v. Netherland, 518 U.S. 152,161-62

69

Hanna v. Ishee, 694 (6th Cir. 2012)

69

Harrera v. Collins, 506 U.S. 309, 113 S. C.T. 853,
122, L.E.D. 2d 203 (1993)

53

VI

Hodges v. Colson, 727 F.3d 517,530, (6th Cir.
2013)

70

Jackson v. Virginia, 433 U.S. 307 (1979)

13

Jordan v. Gilligan, 500 F.2d 701, 710, 6th Cir.
(1974)

20

Kenny v. Tamayo Reyes, 504 U.S. 1
(1996)

14,23,46

Lonchar v. Thomas, 517 U.S. 314, 324
(1996)

14,23,46

Lubben v. Selective Service System Local Bd. No. 27,
453 F.2d 645 (1st Cir. (2011)

72

McQuiggin v. Perkins, 569, U.S. 383

50

Muniz v. Smith, 647 F. U.S. 3d 619, 625, 6th Cir.
(2011)

72

Vll

Murray v. Carrier, 477 U.S. 478, 496

10,14,46

Ohio v. McCain, 2ndDist. Montgomery, No. 27195
(2017 OHIO), 7518, (2017) W.L. 3971656

35

Ohio v. Rangel, 11th Dist. Lake, No. 2018-L-102,

2019-Ohio-1845, 2019 WL 2085824

35

Ohio v. Snowden, 11th Dist. Trumbull No. 2014-TOhio 2611, 2015 WL 3964670

33

OSullivan v.. Boerckel, 526 U.S. 838, 845
(1999)

68

Pudelski v. Wilson, 576 F 3d 595, 605 (6* Cir.
2009)

68

Sawyer v. Whitley, 505 U.S. 333

10

Schriro v. Landrigan, 550 U.S. 465, 474
(2007)

72

Vlll

Slack v. McDaniel, 529 u.s. 465, 484 (2000)

55,67

Snowden, Supra, 2015 WL 3964670 60 N.E. 3d
1252

64,65

Snowden v. Bracy, 67 N.E. 3d 822-Ohio(2017)
Snowden v. Bracy, 6th Cir. 019-PR-03739

65
1

Snowden v. Bracy, Ohio U.S. Northern District
Court 4:17 cv 208

1

Strickland v. Washington, 466 U.S. (1984)

24,54

Thompson v. Loisvill, 362 U.S. 199 (1960)

13

Wainwright v. Skyes, 433 U.S. 72, 91 (1977)

13

Walden v. Huss, 2019 W.L. 2996187 (Mich.)

35

Wills v. Egeler, 532 F. 2d 1059 (6th Cir. 1976).........34
Statutes and Codes
28U.S.C. 1254

2

IX

28 U.S.C. 2254

63,65,68

28 U.S.C. 2253

67

Ohio Revised Code
4511.19(G)(1)(d)

5,8„41,42,43,51

Ohio Revised Code
5,17,41,43,51

2941.1413
Ohio Revised Code

8,16,19,41,42,51

2929.13(G)(1)
Ohio Revised Code 2929.14

41

Constitutional Provisions
United States Constitution,
Amendment V

2,24,30

United States Constitution,
Amendment VI

3,24,32

1

PETITION FOR WRIT OF CERTIORARI
Mr. Snowden an unlawfully convicted defendant,
respectfully petitions this court for a writ of
certiorari to review the judgement of the Sixth
Circuit Court of Appeals
OPINIONS BELOW
The decision by the Sixth Circuit Court of
Appeals is reported as Snowden v. Bracy 0;19-PR03739. The decision by the District Court is reported
as Snowden v. Bracy 4:17-cv-208 Ohio Northern
District Court.
JURISDICTION
Mr. Snowden’s application for certificate of
appealability to the Sixth Circuit Court of Appeals
was denied on October 28, 2019. Mr. Snowden

2

invokes this Court jurisdiction under 28 U.S.C.
1254(1), having filed this p2etition for writ of
certiorari within ninety days of the Sixth Circuit
Court of Appeals judgement.
'CONTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Amendment V
No person shall be held to answer for a capital,
or otherwise infamous crime unless on a
presentment or indictment of a Grand Jury except in
cases arising in land of naval forces, or in the
Military, when in actual service in time of war or
public danger; nor shall any person be subject for
the same offence to be twice in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself nor be deprived be
deprived of life, liberty, or property without due

3

process of law; nor shall private property be taken
for public use, without just compensation.

UNITED STATES CONSTITION, ADMENDMENT
VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by the
impartial jury of the state and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of a of
accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.

UNITED STATES CONSTITUTION,
AMENDMENT XIV

4

All person born of naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein the reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty or
property, without due process of law; nor deny any
person within its jurisdiction the equal protection of
the laws.
STATEMENT OF THE CASE
Mr. Snowden was charged and convicted of a
aggravated 4th degree felony O.V.I. and sentence to
serve two , one year mandatory prison term ran
consecutive. Mr. Snowden was a first time 4th degree
felony O.V.I. offender and was always innocent of

5

the aggravated, felony. The State has conceded to the
merits of the grounds for relief and instead inserted
a procedural default defense.
The Sixth Circuit has denied Mr. Snowden a
hearing where evidence would have been presented
that would have proven innocence of the aggravated
felony beyond all reasonable doubt and instead
dismissed Mr. Snowden s petition as procedurally
defaulted. In the State of Ohio if a offender has five
prior misdemeanor traffic offenses for O.V.I. over a
twenty-year period the offender can be charged with
fourth degree felony O.V.I., O.R.C. 4511.19 G(l)(d).
If an offender has previously twice been convicted of
a fourth-degree felony O.V.I. he is charged with an
aggravated felony O.V.I. O.R.C. 4511.19 (G)(1)(d)
and 2941.1413. When an offender is charged and

6

convicted of the aggravated felony, the offender is
given two separate prison terms that must be ran
consecutive. The separate prison sentences are
continued within a single count in the indictment
enhancing the fourth-degree felony to six to thirty
months and then adding a one-two-three-four-or-five
year mandatory prison term for a total of seven %
years in prison. The fact that the statue was written
so unconstitutionally vague prosecutors are charging
first time offenders with aggravated felony’s by
inserting the prior misdemeanor convictions on the
indictment a second time. When the Prosecutor
brings the aggravated charges there are no
additional elements, facts or circumstances
presented to the jury or found by the Judge at
sentencing to take the basic 4th degree felony to the
aggravated felony. The Prosecutor withheld

7

exculpatory evidence from the grand jury to obtain
the indictment against Mr. Snowden. Mr. Snowden
counsel failed to inform the court that it was Mr.
Snowden’s first 4th degree felony and he was
innocent of the aggravated count. Mr. Snowden
counsel waved his presentence investigation that
would have shown his innocence and stopped the
conviction. The sentencing Judge failed to follow
mandatory sentencing guidelines that would have
proven his innocence and stopped the conviction. It
took constitutional violations committed by the
prosecutor, the attorney and the Judge for Mr.
Snowden to be convicted of an aggravated felony he
did not committed.
If any of the three court officers would have
properly performed their duties, the conviction

8

would not have occurred. In Mr. Snowden’s case a
report was prepared for the prosecutor before he
proceeded to the grand jury. The report obtained by
the prosecutor shows that Mr. Snowden is innocent
of the aggravated felony. If Mr. Snowden would have
been granted a hearing that report would have
proven Mr. Snowden’s innocence beyond all
reasonable doubt. Had Mr. Snowden been properly
charged and convicted O.R.C. 4511.19 G (1) (d) the
maximum penalties he faced were sixty or one
hundred-twenty days of local incarceration,
mandatory treatment and probation O.R.C. 2929.13
(G) (1). At no time was Mr. Snowden ehgible to serve
any time in prison.
A complete miscarriage of justice took place in
Mr. Snowden’s case. Mr. Snowden was

9

unconstitutionally convicted and unlawfully
imprisoned.
THE SIXTH CIRCUITS DECISION IS IN
CONFLICT WITH THIS COURTS PRESIDENCE
This Court has always held that when a
miscarriage of justice takes place procedural default
should never stand in the way to correct the
injustice.
A Federal Court faced with allegations of actual
innocence whether of the sentence or the crime
charged, must first address all nondefaulted claims
for comparable relief and other grounds for cause to
excuse the procedural default. Normally a Federal
Court will not entertain a procedurally defaulted
constitutional claim in a habeas petition absent a
showing of cause and prejudice to excuse the default.

10

However, this Court recognizes a narrow exception
to the general rule when the applicant demonstrates
actual innocence of the substantive offence, Murray
v. Carrier, 477 U.S. 478, 496, or, in capital
sentencing context, of the aggravated circumstances
rendering the inmate eligible for the death penalty,
Sawyer v. Whitley, 505 U.S. 333.
In Mr. Snowden’s case the District Judge ruled
that Mr. Snowden’s ineffective assistance of counsel
claim was not properly before him based on
procedural grounds. This Court disagrees based on
its decision in Dretke v. Haley, 541 U.S. 386(2004).
In the Haley case this Court held that the innocence
claim did not need addressed due to the fact that
Haley had ineffective assistance of counsel. Mr.
Snowden’s case mirrors the Haley case with some

11

major differences. In Haley the petitioner actually
had two prior felonies that would allow an
enhancement, but a three-day time error would not
allow the enhancement. In Mr. Snowden’s case the
prior felonies do not exist. Mr. Snowden should not
have been charged with the aggravated felony. The
State was at all times aware of the fact the Mr.
Snowden was innocence of the crime. Additionally,
in the Haley case the basic felony and the
enhancement are bifurcated. The jury finds the
defendant guilty of the felony and then finds the
defendant guilty of the enhancement. In Mr.
Snowden’s case the State does not bifurcate, not only
is the fourth degree felony enhanced to twelve
months beyond the maximum sentence for a fourth
degree felony in the State of Ohio an additional one,
two, three, four, or five year mandatory prison term

12

is added all contained within a single count. The
aggravated count is a crime in and of itself. Mr.
Snowden is innocent of the crime.
The vagueness of Ohio’s aggravated felony O.V.I.
statue is allowing the Prosecutor in Mr. Snowden’s
case to receive jury guilty verdicts by using the same
prior misdemeanor convictions required for a basic
fourth degree felony O.V.I. The Prosecutor used the
threat of a lengthy mandatory prison sentence to
coerce Mr. Snowden’s no contest plea. As in the
Haley case Mr. Snowden made attempts to have the
State court correct the unlawful conviction and
sentence. Mr. Snowden motioned the Trial Court to
vacate the judgement due to the fact the Court
lacked statutory authority to enter it. The Trial
Court denied the motion without a hearing.

13

Mr. Snowden also filed a petition for Habeas
Corpus at the Ohio Supreme Court, and it was
dismissed without comment.
Footnote: Dretke v. Haley Justice Stevens, with Justice
Kennnedy and Justice Souter join dissenting. Because as all
parties agree, there is no factual basis for respondent s
conviction as a habitual offender, it follows inexorably the
respondent has been denied due process of law. Thompson v.
Louisvill, 362 U.S. 199 (1960); Jackson v. Virginia, 443 U.S.
307 (1979), and because that constitutional error clearly and
concededly resulted in the imposition of an unauthorized
sentence it also follows that respondent is a “victim of
miscarriage of justice”, Wainwright u. Skyes, 433 U.S. 72, 91
(1977), entitled to immediate and unconditional release.1

The Sixth Circuit District Judge and Appeals
Court errored in allowing a procedural defense and

14

not granting a certificate of appealability. Lonchar v.
Thomas 517 U.S. 314, 324, (1996). Dismissal of a
first Federal habeas corpus is a particularly serious
matter, for that dismissal denies the petitioner of the
great writ entirely, risking injury to an important
interest in human liberty. In carrier 477 U.S. at
(Steven J. Concurring), stressing the appellate
procedural default should not foreclose habeas
corpus review of a meritorious constitutional claim
that may establish the prisoner’s innocence. In
Keeny v. Tamayo Reyes 504 U.S. 1 (1992) this Court
held that failure to develop a claim in State Court
proceedings will be excused and an evidentiary
hearing mandated if a petitioner can show that
fundamental miscarriage of justice would result from
failure to hold a Federal evidentiary hearing.

15

WHY THIS COURT SHOULD REVISIT AND
REVERSE THE RULING IN ALMENDAREZ
TORRES v. UNITED STATES
In Almendarez Torres v. United States 523 U.S.
224 (1998) this Court held that other than the fact of
prior convictions any fact that increases an offender
sentence above the minimum or maximum the fact
must be inserted in the indictment and proven to the
jury beyond a reasonable doubt.
In Apprendi v. New Jersey this Court was once
again called upon to address the elements, facts or
circumstances required to be presented to a jury in
order to increase an offender’s penalties. Although
the Apprendi case did not present the fact of a prior
conviction this Court expressed concerns over the

16

constitutional issues that could arise with the Torres
ruling
These issues have surfaced in this case. Mr.
Snowden had his misdemeanor O.V.I. count
enhanced to a fourth-degree felony based on the fact
of five misdemeanor convictions over twenty-year
period. The prior misdemeanor convictions
had to be stated in the indictment and proved to a
jury beyond a reasonable doubt. The maximum
penalty Mr. Snowden faced without any additional
aggravating factors was 60 to 120 days of local
incarceration, mandatory treatment and probation
O.R.C. 2929.13 (G)(1). In the State of Ohio before a
Judge can impose a prison sentence on a non-violent
fourth or fifth degree felony, the Judge must make a
finding required in O.R.C. 2929.13 B(l)(a) or B(l)(b)

17

without a finding the Judg© must s©nt©nc© th© first
time felony offender to probation. This was the case
when it came to Mr. Snowden. The Prosecutor in Mr.
Snowden’s case was aware of this when he presented
the case to the grand jury. When bringing the
aggravated felony O.V.I. charge the Prosecutor
inserts O.R.C. 2941-1413 into the O.V.I. count in the
indictment. The requirement to bring the 294111413 enhancement is the fact of five prior O.V.I.
convictions in a twenty-year period.
What the statute fails to state is that in order for
the offender to receive the enhanced penalties the
offender must have previously twice been convicted
of fourth degree felony O.V.I. The States rational for
not inserting the prior felonies in the indictment is
that O.R.C. 2941.1413 is a sentencing enhancement

18
not a crime. The fact that Almendarez Torres allows
the sentencing Judge to make the findings of prior
felonies by a preponderance of the evidence at
sentencing, first time offenders are being found
guilty of being habitual felony offenders by the jury.
When the Prosecutor has the jury guilty verdict in
hand the offender stands before the sentencing
Judge and is given most if not all of a seven V2 year
prison term for no reason. The first-time offender is
unlawfully harshly punished for taking his case to
trial. The offender is receiving first degree felony
penalties.
All other fourth degree felony offenders that are
similarly situated are given probation as required by
law. The same protections contained in the statute
for O.V.I. defendants are being ignored by the

19

sentencing Court in violation of the offenders fifth
and fourteenth amendment constitutional rights. A
defendant has the right to have all facts required to
imprison him to be found by the jury. The sixth
amendment to the constitution affords the defendant
this protection
This Courts reversal of Almendarez Torres would
stop the unlawful convictions of first-time offenders
such as Mr. Snowden.
WHY MR. SNOWDENS JUDGEMENT IS VOID
Laws are legislative as are the penalties
imposed. A Court has no authority to disregard
written law and make up its own sentences. In Mr.
Snowden’s case the written law was clear. For a
first-time fourth degree felony O.V.I. Mr. Snowden
must be sentenced under O.R.C. 2929.13 (G)(1). The

20

Court had no statutory authority to convict and
sentence Mr. Snowden as a habitual felony O.V.I.
offender. Mr. Snowden was protected by legislative
statute from being convicted and sent to prison. This
Courts centuries old precedence has held that when
Courts act without authority and in contradiction to
written law its judgement is void. If a Court grants
relief, which under the circumstances it hasn’t any
authority to grant, its judgement is to that extent
void. (Freeman on Judgement 120c) “A void
judgment is no judgment at all and is without legal
effect” Jordan v. Gilligan, 500 F. 2d 701, 710 (6th
Cir. 1974) “a Court must vacate any judgment
entered in excess of its jurisdiction” Lubben v.
Selective Service System Local Bd. No. 27, 453 F. 2d
645 ( Ft Cir. 1972).

21

REASON FOR GRANTING THE WRIT
As a first time fourth degree felony O.V.I.
offender Mr. Snowden was arbitrarily charged and
convicted as a habitual felony offender.
Mr. Snowden was charged and convicted by an
overzealous Prosecutor that was at all times aware
of Mr. Snowden’s innocence. Mr. Snowden’s attorney
was ineffective for not bringing the fact of innocence
before the Court and waving Mr. Snowden’s
presentence investigation that would have proven
innocence.
The sentencing Judge did not follow mandatory
sentencing guidelines that would have stopped the
conviction and unlawful imprisonment. The Sixth
Circuit District Court and Appeals Court rulings
directly contradict this Courts precedence. Mr.

22

Snowden can prove beyond all reasonable doubt that
he was innocent of the aggravated felony, that there
was Prosecutor misconduct, that he had incompetent
Counsel and that the Judge did not have the
statutory authority to convict him. Mr. Snowden had
his fifth, sixth and fourteenth Amendment
Constitution rights violated multiple times. Mr.
Snowden was sent to serve a two-year mandatory
prison term that he was not eligible to receive.
When all of these violations occurred against Mr.
Snowden and it was brought to the attention of the
State, they completely ignored him.
The State could have done the right thing and
had Mr. Snowden released from prison but instead
added insult to injury by ignoring him and telling
the Federal Courts to do the same.

23

Mr. Snowden made multiple requests at both the
State and Federal level for a hearing. If Mr.
Snowden would have been granted a hearing the
miscarriage of justice would have been corrected.
In Mr. Snowden’s case the State has no defense.
The State is aware that Mr. Snowden was
unconstitutionally convicted and served and illegal
prison term. The States rational for allowing the
injustice is the Prosecutor got away with it and
because Mr. Snowden had incompetent Counsel the
conviction should stand.
This Court has always ruled that if a petitioner
is innocent of the charged crime a hearing is
mandatory and relief must be granted. Kenny v.
Tamayo Reyes 504 U.S. (1992), Lonchar v. Thomas

24

517 U.S. 314, 324 (1996), Strickland v. Washington
466 U.S. (1984).
Mr. Snowden’s sixth amendment rights were
violated when the Prosecutor failed to state in the
indictment the elements required to convict Mr.
Snowden of an aggravated felony O.V.I.
Mr. Snowden’s sixth amendment rights were
violated by being represented by incompetent
Counsel, where Counsel actions aided the Prosecutor
in securing the unlawful conviction.
Mr. Snowden’s fifth and four-tenth amendment
rights were violated when the Prosecutor withheld
the proof of innocence from the grand jury and the
Court to secure a conviction.

25

Mr. Snowden’s fifth and four-tenth amendment
rights were violated when the trial Judge ignored
statutory mandates at sentencing that would have
stopped the conviction.
The biggest mystery in Mr. Snowden’s case is the
fact the State can stand silent after committing
these violations. At minimum a reviewing Court
should have the State appear to answer to the Court
how so many violations could occur in a single case
to send an innocent man to prison. The State should
explain why nothing was done at the State level to
correct this.
CONCLUSION
The Sixth Circuit Court should have at minimum
held a hearing to address the ineffective assistance
of Counsel claim where there is proof of actual

26

innocence. This Court should grant Certiorari to
correct the injustice and restore Mr. Snowden’s
Constitutional rights.
If the actions of this Trumbull County Prosecutor
continue, it will open the door for all Ohio
Prosecutor’s to arbitrary charge and convict first
time offenders of aggravated felonies they did not
commit. These arbitrary prosecutions could be based
on things such as race, religion, gender, or economic
standing. These unlawful convictions must end.

Respectfully Submitted,

William Snowden Jr.

